No. 19-942
IN THE SUPREME COURT OF THE UNITED STATES
Laurel Zuckerman, as Ancillary Administratix of the Estate of Alice Leffmann,
Petitioner,
v.
The Metropolitan Museum of Art,
Respondent.
CERTIFICATE OF COMPLIANCE
Pursuant to Supreme Court Rule 33.1(h), I certify that the Amicus Curiae Brief
of the Armenian Bar Association and Armenian Legal Center for Justice and Human
Rights in Support of Zuckerman’s Petition for Writ of Certiorari contains 5,069 words,
including footnotes, but excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 24, 2020, at Houston, Texas

Seepan V. Parseghian
Beck Redden LLP
1221 McKinney Street, Suite 4500
Houston, TX 77010

